HHS/OIG, Audit - "Review of Rhode Islands Title IV-E Adoption Assistance
Costs for State Fiscal Years 20032005," (A-01-07-02503)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rhode Islands
Title IV-E Adoption Assistance Costs for State Fiscal Years 20032005,"
(A-01-07-02503)
June 16, 2008
Complete
Text of Report is available in PDF format (411 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State overclaimed $2.7 million in State fiscal years (SFY)
20032005 in high-dollar (more than $3,700) adoption assistance payments for
ineligible children.  Federal adoption assistance payments are available for
children who meet supplemental security income (SSI) requirements or whose
family income does not exceed the ceiling for the former Aid to Families with
Dependent Children (AFDC) program (as in effect on July 16, 1996).  Children who
meet AFDC eligibility requirements qualify for assistance if their removal from
the home was based on either a voluntary placement agreement or a judicial
determination demonstrating that continuation in the home would be contrary to
their welfare.
The State complied with Federal eligibility requirements in claiming high-dollar
adoption assistance payments totaling $3.4 million for 740 of the 996 children
whose cases we reviewed for SFY 2003.  However, the remaining 256 children with
payments totaling $954,000 met neither SSI requirements nor all of the other
requirements for Federal reimbursement.  The State continued to claim adoption
assistance payments totaling $1.8 million in SFYs 2004 and 2005 for many of
these children.
We recommend that the State (1) make a financial adjustment of $470,000 on its
next Federal quarterly expenditure report for children who did not meet AFDC
income eligibility requirements, (2) work with the Administration for Children
and Families to resolve $2,242,000 in overpayments for children who did not meet
requirements for voluntary placement agreements or judicial determinations, and
(3) review adoption assistance payments claimed after our audit period to ensure
compliance with Federal eligibility requirements.  The State concurred with our
findings and recommendations.